<html>
<title> - MITIGATING THE IMPACT OF HIGH GAS PRICES ON THE AMERICAN WORKFORCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   MITIGATING THE IMPACT OF HIGH GAS PRICES ON THE AMERICAN WORKFORCE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2005

                               __________

                           Serial No. 109-116

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-706 PDF                WASHINGTON : 2006
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Chris Barkley, Professional Staff Member
                       Chad Christofferson, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2005................................     1
Statement of:
    Calcagni, Thomas F., managing director for public relations, 
      American Automobile Association; William Mularie, chief 
      executive officer, Telework Consortium; Steve O'Keeffe, 
      executive director, Telework Exchange; and Steven D. Hill, 
      president, Silver State Materials..........................    57
        Calcagni, Thomas F.......................................    57
        Hill, Steven D...........................................    73
        Mularie, William.........................................    63
        O'Keeffe, Steve..........................................    64
    Green, Daniel A., Deputy Associate Director, Center for 
      Employee and Family Support Policy, Office of Personnel 
      Management; and Daniel P. Matthews, Chief Information 
      Officer, U.S. Department of Transportation.................    39
        Green, Daniel A..........................................    39
        Matthews, Daniel P.......................................    44
    Wolf, Hon. Frank R., a Representative in Congress from the 
      State of Virginia; and Hon. James P. Moran, a 
      Representative in Congress from the State of Virginia......    18
        Moran, Hon. James P......................................    24
        Wolf, Hon. Frank R.......................................    18
Letters, statements, etc., submitted for the record by:
    Calcagni, Thomas F., managing director for public relations, 
      American Automobile Association, prepared statement of.....    59
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    85
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     8
    Green, Daniel A., Deputy Associate Director, Center for 
      Employee and Family Support Policy, Office of Personnel 
      Management, prepared statement of..........................    41
    Hill, Steven D., president, Silver State Materials, prepared 
      statement of...............................................    76
    Matthews, Daniel P., Chief Information Officer, U.S. 
      Department of Transportation, prepared statement of........    46
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    27
    O'Keeffe, Steve, executive director, Telework Exchange, 
      prepared statement of......................................    68
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     4
    Wolf, Hon. Frank R., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    21


   MITIGATING THE IMPACT OF HIGH GAS PRICES ON THE AMERICAN WORKFORCE

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2005

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Mica, Davis of Virginia, 
Schmidt, Davis of Illinois, Norton, Cummings, and Van Hollen.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director/chief counsel; Christopher 
Barkley and Shannon Meade, professional staff members; Patrick 
Jennings, OPM detailee/senior counsel; Chad Christofferson, 
legislative assistant/clerk; Tania Shand, minority professional 
staff member; and Teresa Coufal, minority assistant clerk.
    Mr. Porter. I would like to bring the meeting to order. 
Welcome. Appreciate everyone being here this afternoon for the 
Subcommittee of the Federal Workforce and Agency Organization's 
hearing on mitigating the impact of high gas prices on the 
American work force. I appreciate your all being here today.
    I note that there is a quorum present and we are now 
formally in order.
    It is not very often in a country as large as ours that the 
damage from one natural disaster hits home quite as much as 
what has happened to us in the wake of Hurricane Katrina. 
Living in Las Vegas, we don't have a lot of hurricanes. But we 
are impacted in Las Vegas, as is the rest of the country, when 
part of our country is so greatly impacted.
    Southern Nevada, much like the rest of the country, has 
experienced some impacts specifically to our gas prices, with 
soaring gas prices in recent months. Fortunately, we are seeing 
some adjustments in recent days and possibly weeks, but it is 
very difficult for us as a community in Nevada, and especially 
southern Nevada, with a product that is so volatile, especially 
with our impact on our country and our community with our 
dependence on foreign oil. When our country-wide resources are 
impacted, it impacts every American.
    If the price of butter goes up, we can buy margarine. If 
the price of green beans goes up, we can buy peas. But when the 
price of gas goes up, we seem to have little choice but to pay 
the price at the pump--maybe drive around a little bit and find 
one a little bit less, but we have to squeeze our budgets 
someplace to take care of the cost.
    In a State like Nevada, where the cost of living has 
increased substantially in recent years, I am deeply concerned 
about what the price of gasoline and natural gas will do to our 
State's workers and businesses. In Las Vegas, a gallon of gas 
averages $2.41, meaning that even small or economy-car owners 
can now spend almost $30 to fill up their vehicle.
    Nevada is by no means alone in this issue. Although gas 
prices have now fallen to pre-Hurricane Katrina levels, 
according to the Energy Information Administration, a gallon of 
gasoline now averages around $2.37 a gallon nationwide, an 
increase of 38 cents a gallon from a year ago. That increase 
has caused people to reevaluate their finances and commuting 
habits, since it is no longer economically feasible for many 
American families to fill up their vehicles every week.
    In recent years, Congress has stepped up its efforts in a 
number of areas to try to assist government employees in 
transportation costs as they have continued to climb, all of 
which are of course now as relevant as they have ever been. 
Those efforts have included promoting telecommuting, mass 
transit, and flexible scheduling so employees can work on 
alternative schedules. It is my intention today to discuss some 
of those efforts and see if we are doing all that we can to 
make sure that the programs are being implemented fully during 
this time of hardship for many people.
    One of the areas that have received attention recently has 
been the Federal Government's effort to encourage 
telecommuting, or telework. As most people know, this generally 
means working from home or at an offsite location close to 
their home. Besides its other advantages, those that take 
advantage of telework achieve real savings on the cost of gas. 
Unfortunately, neither agencies nor employees have taken 
advantage of the program to the degree that Congress would 
like. We are fortunate to have with us today Congressman Frank 
Wolf, who represents tens of thousands of Federal employees and 
has really been a leader on the issue of telework. Congressman 
Wolf has, along with Chairman Tom Davis, spearheaded an effort 
to require that agencies comply with congressionally mandated 
requirements to provide telework opportunities to their 
employees.
    Another area of interest to the subcommittee is the benefit 
provided to employees who take advantage of mass transit in 
their area. Earlier this year, this subcommittee passed H.R. 
1283, a bill introduced by Congressman Jim Moran to encourage 
use of mass transit in the National Capital Region. Congressman 
Moran has also been a leader on the issues affecting Federal 
employees, and we look forward to hearing from him today.
    For my part, I am announcing today my intentions of working 
on another bill--it is called the Gas Tax Accountability Act. 
The purpose of this bill will be to make consumers aware of how 
much they are paying in taxes for every gallon of gas that they 
may purchase. This bill would provide that labels be posted on 
gas station pumps showing an amount of local, State, and 
Federal taxes a consumer pays per gallon of gasoline. By having 
this information displayed, it is my hope that citizens will be 
able to keep their government accountable for how taxes affect 
the high price of gas at the pump.
    In the end, the price of gas is something that we in 
Congress can't specifically control, nor should we, but is 
something that all Americans will have to deal with in the 
weeks and months ahead. As that happens, it is my hope that, in 
hearings such as this and by legislation that is being 
considered, that we can find creative solutions to ease this 
burden on the American work force.
    [The prepared statement of Hon. Jon C. Porter follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.001
    
    [GRAPHIC] [TIFF OMITTED] T5706.002
    
    Mr. Porter. I certainly look forward to testimony today 
from all of our witnesses. I would like to recognize now the 
rest of my team that is here today, the ranking minority 
member, Mr. Danny Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Gasoline prices should be a function of supply and demand. 
As the demand for petroleum products has risen in the United 
States and worldwide in recent years, so have gasoline prices 
in the United States. They have been trending upwards since 
early 2002. Oil company profits also have risen dramatically 
during this period. This year, the six biggest oil companies 
are on track to triple their profits from 2002 for an expected 
total approaching $100 billion in profits.
    Multiple factors affect gasoline prices. Rising demand for 
all petroleum products, including gasoline, is a key factor. 
Crude oil prices, which are linked to the worldwide demand for 
petroleum products are another factor. The war and continued 
violence in Iraq has added uncertainty and a threat of supply 
disruption that has added pressure particularly to the crude 
oil commodity futures markets. Skyrocketing oil industry 
profits have led many to question whether market manipulation 
or simple price gauging has also driven up price increases to 
the industry's benefit.
    Most recently Hurricane Katrina hit the Gulf Coast, doing 
tremendous damage to homes, businesses, and physical 
infrastructure, including roads, electricity transmission 
lines, and oil-producing, refining, and pipeline facilities. 
Retail gasoline prices increased 45 cents per gallon between 
August 29th and September 5th. The average price for a gallon 
of regular gasoline on September 5th was $3.07, the highest 
nominal price ever. Since then, prices have moderated some.
    Members of Congress from the Washington metropolitan area, 
especially hearing witnesses, Representative Frank Wolf and Jim 
Moran, have been encouraging Federal agencies to implement 
telecommuting policies to help address traffic congestion and 
pollution in the Washington area. Telecommuting also would help 
alleviate the cost of high gas prices for commuters.
    Historically, the primary benefits of telecommuting were 
reduced traffic congestion and pollution, improved recruitment 
and retention of employees, reduced need for office space, 
increased productivity, and improved quality of life and morale 
for Federal employees. These continue to be compelling and 
valid reasons for implementing agency-wide telework programs. 
Representative Frank Wolf is to be commended for moving 
legislation that pushes agencies to increase the number of 
Federal employees who telecommute.
    However, with the Oklahoma City bombings and September 
11th, we have realized another very compelling reason to push 
Federal agencies and ourselves to develop and to implement the 
infrastructure and work processes necessary to support 
telecommuting. It is emergency preparedness and the continued 
threat of terrorism. The question we must ask ourselves is 
this: In the event of an emergency, are we--this committee, our 
staffs, and all the Federal agencies--prepared to serve the 
American people if our primary place of work is no longer 
available to us?
    Continuity of Operations Planning [COOP] is not the subject 
of today's hearing. However, I invite my colleagues and those 
of you who support telecommuting and Continuity of Operations 
Planning to support a revised version of H.R. 4747, which I 
introduced during the last Congress. This bill would require 
the chief Human Capital Office of Counsel to conduct and 
evaluate a 10-day demonstration that broadly uses employees' 
contributions to an agency's operations from alternate work 
locations, including home.
    The outcome of the demonstration project would provide 
agencies and Congress with approaches for gaining flexibility 
and identifying work processes that should be implemented 
during an extended emergency. The number and types of potential 
emergency interruptions are unknown, and we must be prepared in 
advance of an incident, with the work processes and 
infrastructure needed to reestablish agency operations. 
Representatives Waxman, Porter, Cummings, and Norton, among 
others, have already agreed to cosponsor the bill, and I thank 
them for their support.
    I look forward to the testimony of our witnesses today and, 
again, Mr. Chairman, I thank you for holding this session.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.003
    
    [GRAPHIC] [TIFF OMITTED] T5706.004
    
    [GRAPHIC] [TIFF OMITTED] T5706.005
    
    [GRAPHIC] [TIFF OMITTED] T5706.006
    
    [GRAPHIC] [TIFF OMITTED] T5706.007
    
    [GRAPHIC] [TIFF OMITTED] T5706.008
    
    [GRAPHIC] [TIFF OMITTED] T5706.009
    
    [GRAPHIC] [TIFF OMITTED] T5706.010
    
    [GRAPHIC] [TIFF OMITTED] T5706.011
    
    [GRAPHIC] [TIFF OMITTED] T5706.012
    
    Mr. Porter. Thank you, Mr. Davis.
    Out of courtesy to our visiting members, I would like to 
wait a moment before we finish our opening statements and allow 
our visitors to give their statements--with the concurrence of 
the--is that OK? Thank you.
    I would like to move on to the first panel, again, out of 
courtesy. We appreciate you both being here--Representatives 
Frank Wolf and Jim Moran, both representing constituents from 
Virginia. These Members of Congress have played an active role 
in bringing attention to the issue of alternative work programs 
and transportation benefits to help workers manage rising fuel 
costs.
    First, Mr. Wolf. We appreciate your statement today. Thank 
you for being here.

STATEMENTS OF HON. FRANK R. WOLF, A REPRESENTATIVE IN CONGRESS 
    FROM THE STATE OF VIRGINIA; AND HON. JAMES P. MORAN, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

                STATEMENT OF HON. FRANK R. WOLF

    Mr. Wolf. Thank you, Chairman Porter. It is good to be here 
with you. I am glad to be here with my good friend Jim Moran.
    To put it simply, and I think you all know, listening to 
your opening statements, they were very strong on much of what 
I may very well say. There is nothing magic about strapping 
ourselves into a metal box every day only to drive to an office 
where we sit behind a desk with a working computer. 
Telecommuting is a traffic issue in this region, in Chicago and 
in L.A. and in almost every part of the country. It is an air-
quality issue, an environmental issue, a continuity of 
operations issue; it is an energy-saving issue, it is a 
quality-of-life issue, giving people more time to spend with 
their families.
    As the Nation's largest employer, the Federal Government 
should be a model for telework. And I had put a provision in, 
with the support of Mr. Davis and Mr. Moran, in the 2001 
transportation appropriations bill saying all Federal agencies 
must allow every eligible employee who wants to telework and 
whose job lends itself to telework.
    I have been disappointed, and my full statement covers it a 
little bit more, that the government has not moved as 
aggressively as it could have. Just this past week, I was 
contacted by several constituents with the Bureau of Prisons 
and the Farm Service Agency who were being denied their right 
to telework. That is taking place in a lot of different 
agencies.
    Telework is a win-win for the Federal Government. It 
increases worker productivity, improves morale, gives employees 
the chance to spend time with their families or simply use 
their free time as they see fit. It improves our air quality, 
can save the Federal Government money by helping to reduce 
taxpayer real estate costs, increase worker retention, and many 
that Mr. Davis said.
    In this year's appropriations bill, we have a provision in 
whereby the State, Commerce, and Justice Departments will lose 
$5 million if they do not move ahead with regard to telework. 
The bill also requires--but it only covers, Mr. Chairman, the 
agencies under the subcommittee that I am the chairman of; it 
does not cover governmentwide--the bill also requires the 
departments and agencies to designate a telework coordinator to 
oversee the implementation and operation of telecommuting 
programs within each department. The departments and agencies 
also will be required to provide quarterly reports on the 
number of employees that are teleworking, so they can actually 
show improvement.
    Following Hurricane Katrina, I sent a letter to President 
Bush asking him to make telework a priority for his 
administration. In the letter I pointed out that many of the 
Nation's leading security experts are pointing to telecommuting 
as a key to ensuring that the government continues to operate 
during and after a catastrophic event. I appreciate the efforts 
of the General Services Administration to pay the cost of 
telework centers for Federal employees who wish to telework as 
a result of Hurricane Katrina and the recent spike in fuel 
costs.
    I was contacted--and this is where I think this committee 
could really make a big difference--I was contacted by Federal 
contractors that conduct business in the region impacted by 
Hurricane Katrina and learned that many of these private-sector 
businesses are utilizing telework in order to continue 
operations. But unfortunately, they are having a difficult time 
working with their Federal Government counterparts who are not 
being allowed to participate in telework.
    And also, some of the contractors tell us that, as they get 
bids for doing work for the Federal Government, they cannot 
count their hours in telework. So they may be working with an 
agency that is telework, but as they put together their 
proposal, their hours are not necessarily counting as they are 
teleworking. For you to be able to deal with that issue would 
make a tremendous difference.
    September 11th, the anthrax scare, now Hurricane Katrina 
have exposed vulnerabilities in our Nation which can disrupt 
government, as Mr. Davis said, and business operations. In the 
wake of these events, a governmentwide telework program should 
be the cornerstone of the Federal workplace to ensure that 
necessary telework habits are in place in the event of a 
similar disaster in the future. With a Federal telework model, 
the private sector could also expand its telework options.
    Imagine if we got a pandemic. Avian flu. I mean, if you get 
it in a key office in the Federal Government and let's say 
someone in that office comes down with avian flu or something 
like that, do you want to tell everyone else to continue to 
come in? I mean, their roles are very important, that they have 
to continue to operate.
    Finally, rising gas prices are having a major impact on our 
Nation's commuters, who must travel dozens of miles each day to 
work, including Federal employees. My congressional district 
includes the Shenandoah Valley. Early in the morning, when I am 
heading to meetings or events in the area, I see a steady 
stream of cars coming from places like Winchester and Front 
Royal toward Washington to Federal workplaces. These commutes 
can take 2 or more hours each way.
    In short, telecommuting works. I urge the committee to do 
everything. And I appreciate your having the hearing. By having 
the hearing, you just send a message to the Cabinet 
secretaries, the mid-level managers; this is really important 
and really a priority to Congress.
    Thank you very much, and thank you and the members of the 
committee.
    [The prepared statement of Hon. Frank R. Wolf follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.013
    
    [GRAPHIC] [TIFF OMITTED] T5706.014
    
    [GRAPHIC] [TIFF OMITTED] T5706.015
    
    Mr. Porter. Thank you, Congressman. Appreciate your being 
here.
    Mr. Moran, welcome.

                STATEMENT OF HON. JAMES P. MORAN

    Mr. Moran. Thank you, Mr. Chairman and Mr. Davis and Ms. 
Norton.
    Is this on? No, it is not.
    Mr. Porter. OK. Is there something I should do to put it 
on?
    Mr. Moran. This is on. Fine.
    The Federal employees, like their private-sector 
counterparts, have weathered the steady climb in gasoline 
prices that spiked dangerously upward following the disruption 
to oil production and refining facilities by hurricanes Katrina 
and Rita. And while we appear to be on the downward slope of 
the spike in the gasoline prices, we should take no comfort 
that the days of $3 price per gallon of gasoline are behind us.
    They are not. Long-term forecasts by the Department of 
Energy and by the private-sector industry analysts both suggest 
that prices will continue to be volatile and demand will keep 
prices at or above current levels. That means a higher portion 
of employee income is and will continue to be going toward 
keeping gas tanks filled, homes heated, and food on the table.
    As we have learned, there is little the Federal Government 
can do over the short term to offset high energy prices. But my 
colleague Frank Wolf, with strong support from Chairman Davis 
of this committee, on both sides of the committee and this 
particular subcommittee, have been advocates of telecommuting 
and telework. And we appreciate that. As Frank suggested, the 
entire regional delegation believe in this as a very important 
part of the solution to this problem and it also has a positive 
impact on helping to offset the high price of gasoline, as Mr. 
Wolf has said.
    These policies can also be adopted in the private sector, 
and it is important that we encourage that. Frank has 
articulated the merits of Federal teleworking and 
telecommuting, and obviously I support that in every way I can.
    There is another benefit, though, that should be expanded, 
and that is Federal transit benefits. Federal workers in this 
region are fortunate to have a network of public and private 
transit services, van and carpooling options that enable them 
to leave their vehicles at home. There has been a substantial 
Federal, State, and local investment in the construction of 
Metrorail and Metrobus. Both Virginia and Maryland have 
invested heavily in establishing commuter rail services, and 
local governments and private entrepreneurs have set up a 
multitude of park and ride facilities and bus and vanpool 
services.
    Through the Council of Government's Commuter Connections 
program, the Washington, DC region even offers peace of mind to 
transit users and carpoolers through its Guaranteed Ride Home, 
that gives commuters who need to get home in an emergency and 
don't have their--they didn't drive to work, they can have a 
free taxi ride up to four times a year.
    I recognize that transit is not possible for everyone, but 
where it can work it should be supported. And when it does 
work, its benefits extend to everyone. More transit riders and 
fewer cars on the road not only means less roadway congestion, 
but also less gas consumption, lower demand, thus lower prices 
at the pump.
    Where transit exists, the $105 per month tax-free transit 
benefit can help provide the difference needed to get a 
critical mass of commuters out of their cars and into transit. 
These benefits complement other smart policies, like the 
current preference to locate Federal facilities within walking 
distance of Metrorail stations, that make transit an ideal 
solution to rising energy prices. The Federal transit benefit 
owes its origins to the Comprehensive National Policy Act of 
1992. This law enabled employers, government and nongovernment 
alike, to provide their employees a tax-free cash benefit to 
cover the cost of commuting by transit or vanpool.
    For the Federal Government, however, the benefit was 
voluntary and very few agencies provided it. It wasn't until 
October 2000 that all executive branch agencies were directed 
by an Executive order to provide their employees in the 
National Capitol Region with the full tax-free transit benefit. 
The Metropolitan Washington COG estimates that this benefit 
boosted daily Federal employee transit benefit participation by 
more than 100,000 and reduced vehicle miles traveled between 40 
and 54 million annually.
    I am indebted to the work of this committee in advancing 
legislation I introduced earlier this year to expand this 
requirement to cover all Federal employees in the National 
Capital Region, including those who work in the legislative and 
judicial branches and the independent Federal agencies, as you 
mentioned, Chairman Porter. Through the efforts of the 
Government Reform Committee, this proposal was added to the 
transportation authorization and became law this past August.
    While it is not a complete picture, the transit benefit 
appears to be working. For this month of November, Metro's 
Metrocheck issued monthly transit benefits to approximately 
155,000 Federal workers and 79,000 private-sector employees in 
the National Capital Region. The Metrocheck program helps 
administer the transit benefit for Metro, local commuter rail, 
and for the other local transit services.
    That is an impressive participation rate, but it certainly 
is not the end to what we can do to encourage transit use. 
First, parity has to be established between the value of the 
tax-free parking benefit and the transit benefit. According to 
the IRS, the monthly tax-free limit for transit and vanpools in 
2006 will remain at $105 per month. Free parking, however, is 
valued at over $200 per month.
    Congress should consider raising the monthly transit 
benefit level. The Senate transportation authorization would 
have raised the nationwide transit benefit to $200 a month, 
equal to the parking benefit. The provision, however, was 
dropped in conference.
    Second, the benefit should not be limited to those Federal 
employees fortunate to live in the National Capital Region. It 
should be expanded to cover all Federal employees everywhere 
where transit and vanpools are available.
    Third, we need to find more ways to encourage higher 
private-sector participation. I have here the Metropolitan 
Washington Council of Governments' 2004 State of the Commute 
Survey Results. According to the survey, only 34 percent, 1 out 
of 3, of this region's nonprofits and 18 percent of the private 
sector offer their employees a transit benefit. If these 
results reflect a broader national pattern, the Congress might 
want to test the feasibility of additional programs and 
incentives that would encourage greater private-sector 
participation. It may be as simple as getting the word out to 
more companies and employees. When employees learn about the 
program, their employers often follow suit and offer the 
benefit.
    So in conclusion, transit benefits are an important public 
policy tool to promote healthier lifestyles, reduces traffic 
congestion and air pollution, and lower gasoline consumption. 
Its widespread use and therefore, its effectiveness, is 
dependent on a combination of factors that can help conserve 
fuel and, in doing so, can help employees offset the higher 
price of gasoline, which was the subject of this hearing.
    We thank you for having the hearing, Mr. Chairman and 
members of the committee, and look forward to working with you. 
Thank you.
    [The prepared statement of Hon. James P. Moran follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.016
    
    [GRAPHIC] [TIFF OMITTED] T5706.017
    
    [GRAPHIC] [TIFF OMITTED] T5706.018
    
    [GRAPHIC] [TIFF OMITTED] T5706.019
    
    Mr. Porter. Thank you, both of you, very much for your 
testimony.
    Question: I know you have been working at this for a long 
time and trying to encourage the Federal agencies. What do you 
think we can do next to make sure that they take advantage of 
some of the tools that we are providing--through the 
authorizing process, or what do you think we need to do?
    Mr. Wolf. Well, I think passing a law mandating it. Roughly 
60 percent of the jobs in this region are jobs whereby people 
can telework. Second, convincing the administration to speak 
out boldly and not reluctantly. If the President made this a 
priority, if the President spoke about this in his State of the 
Union message to talk about as we get control of our energy 
costs and do these things. But I think at the top we all are 
responsible for our offices and the tone that we send, but I 
think if the White House were to embrace this thing, then I 
think the Cabinet secretaries and the mid-level managers would 
join in.
    Chairman Porter, there are no downsides to it, absolutely, 
positively, categorically none; from productivity to savings 
for the taxpayer. One of the greatest problems in the country 
is the breakdown of the American family. This is good for the 
family. Spend more time, husbands and wives, with kids, 
coaching little league, singing in the choirs. The energy issue 
is a big issue. This is good for energy.
    Environmental is a good issue. It is good for the 
environment. There are no downsides. And God forbid, we all 
know what took place on Katrina, but a national emergency--on 
the day of September 11th, I know, individuals here--hard to 
get out, you couldn't get out. In order to get to Virginia, I 
had to go through Maryland. Continuity of government.
    So I think if the President and the White House were to 
embrace this thing from all of those issues, that would send an 
amazing message. And this committee can really, I think, make 
the difference.
    Mr. Porter. Congressman Moran, anything you would suggest?
    Mr. Moran. Well, certainly I agree with Frank in terms of 
support for telecommuting and telework. And I do think that 
this transit benefit has been shown to be an effective 
incentive, although it needs to be on parity with the value of 
free parking that we offer. So if you had a transit benefit, as 
the Senate suggested, that was comparable, then I think that 
would even further enhance the incentive and change people's 
commuting patterns.
    Mr. Porter. How about the private sector? What do you think 
we can do to have more of the private sector involved in 
telework?
    Mr. Wolf. Well, a lot of the private sector--AT&T, Siemens 
are really doing a good job. You are going to have a couple of 
members of the panel, I believe, who will tell you that 
technology that is now out--the technology is out there. If you 
flip your laptop up, I flip mine up, we can talk to one 
another, visually see each other. And I think the private 
sector is probably doing a better job than actually government.
    Now, as the price of gasoline goes up, I mean, in the old 
days, the AT&T telephone and Star would get in his or her car, 
drive to the place, pick up the truck, go out, fix the phones, 
come back, drop the truck off and go. Now they just come in 
once a week to get the equipment. I think business really kind 
of gets it a little bit more than the government.
    I don't really think you need tax breaks, because if you 
care about productivity and cost and morale and retention, 
telecommuting has all that with it. So I think a lot of 
businesses, AT&T and Siemens and all, and many others, are 
really doing a pretty good job.
    Mr. Moran. Chairman Porter, I don't know whether they do 
this in Las Vegas--I suspect they do--but in terms of zoning at 
the local level, the height, I know, is granted in suburban 
areas as well as in D.C. to a greater degree if the developer 
will reduce the number of parking spaces and thus increase the 
reliance upon transit or van- or carpooling. And that is 
something that has worked effectively. Obviously, it is easier 
if employees are located near some type of public transit. But 
reducing the number of parking spaces in buildings so that car 
and van pools can use those parking spaces is one way to do it.
    I think part of the problem is not with the large employers 
as much as with the smaller employers. And with that, we could 
show them how they can computerize the things like transit 
benefits in the Washington area. In fact, the Council of 
Governments can show them that. You simply put it into the 
compensation system on a computer. I don't think they know how 
to do that right now, but it is easy to instruct them. And I 
think if they realize how simple it is administratively, they 
might be more inclined to do it. But a lot of it does depend 
upon local government decisionmaking.
    Mr. Porter. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
And gentlemen, let me thank you for your testimony.
    You know, we have explored barriers to implementation, and 
I certainly would concur and agree with all of those. But I was 
thinking that, in addition to the fact that change is slow, 
threatening, more covert than overt, oftentimes is subtle, what 
other reasons can you see for what appears to be a tremendous 
amount of reluctance on the part of our management personnel to 
embrace and help push or make use of this concept? And there 
seems to be a tremendous amount of reluctance to do that.
    Mr. Wolf. Well, I think there is a general feeling that if 
you cannot see your employee----
    Mr. Porter. Congressman, I don't think your mic is on.
    Mr. Wolf. I think there is a general feeling that if you 
cannot see your employee, maybe they are not working. And I 
think probably, that is such a barrier, whereas just the 
opposite is true. I mean--but I think the fact that you can't 
see somebody, and we are all taught as young people to go out, 
we get up, we get ready, we get dressed and we go to work. And 
somehow that, I think, is probably the biggest hurdle.
    Mr. Moran. That is probably a lot of it. So it is a matter 
of management understanding that people can be just as 
effective sitting in their pajamas in front of their computer 
at home. Now, not all jobs lend themselves to that, but those 
that do, there should be that kind of managerial flexibility. A 
lot of it is simply people are hide-bound to tradition, but 
others don't realize how convenient it can be. And it is going 
to take time, but I think a certain amount of leadership from 
the Congress encouraging it is necessary to speed the process.
    Mr. Wolf. And I agree with Jim, also it is good if you have 
somebody who is handicapped. The ability to be working from 
home to make that person more productive. It is just so--it 
makes so much sense. And maybe the job is that you telework 3 
days a week and come in 2 days a week. Maybe you telework the 
first week of the month because that is when you are putting 
together the reports and you want that private time and you are 
in every--so there are so many variations. But I think what Jim 
said is accurate.
    Mr. Davis of Illinois. Well, let me just thank both of you 
because I certainly agree. As we were having this discussion, I 
was thinking of a person who works in my office who is going 
out on maternity leave and on childcare leave. But I am totally 
certain that she can do a tremendous job without being in the 
office, that the work that she does, her work ethic, the amount 
of energy that she displays, the seriousness with which she 
takes her work. I mean, of course, I was amazed the other day 
when her baby was born at 4 a.m., and she called me at 8 a.m. 
to say that she wasn't going to be coming in. And I said, well, 
I guess not. [Laughter.]
    But I think that there are indeed just many instances. Of 
course it won't work for everybody, but there are just many, 
many instances where individuals would do an exceptional job. 
And so I thank you both for coming and for sharing with us and 
being a part of this hearing.
    And I don't have any further questions, Mr. Chairman.
    Mr. Porter. It was nice of you to give her the day off.
    Mr. Davis of Illinois. Yes. I think 1 day.
    Mr. Porter. Thank you for your questions.
    Congresswoman, do you have questions?
    Ms. Norton. No.
    Mr. Porter. Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Mr. Wolf--first of all, I want to thank both of you. This 
just makes a lot of sense. And I guess as I get older and 
sitting around here, I just get a little cynical, sadly. And an 
idea that is just absolutely--you know, there are some ideas, I 
remember when I was in the Maryland Legislature we had the seat 
belt bill for many, many years. And we kept putting it in, kept 
putting it in, and finally all the stars came together to make 
it possible to pass and it just flew through.
    It seems to me, based upon your testimony, that it sounds 
like we have reached what should be the coming together of the 
stars. So Mr. Wolf--and I believe deep in my heart that if the 
administration wanted this bill to go through, it would happen. 
Would you agree? I mean, we got OPM, we got folks who--and it 
makes sense. And I am just wondering what the President said. 
I'm not--I am just curious. I mean, did you get a response? 
Because I think there are a lot of things that we push hard, 
and I think you probably on this side of the aisle--I can't 
speak for us--you probably get every Member voting for it, or 
most of us. And I am just wondering, you know, what has been--I 
mean, did you get a response? You said you wrote the President, 
and I'm wondering if he responded.
    Mr. Wolf. Not yet.
    Mr. Cummings. Well, see, I am asking that because he 
doesn't return my calls. [Laughter.]
    I thought maybe you got a response since you----
    Mr. Wolf. No, I have not. But I will share it with the 
committee when we get it.
    Mr. Cummings. OK. All right. Thank you.
    Mr. Porter. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I want to join 
with my colleagues in thanking Congressman Wolf and Congressman 
Moran for their leadership on these issues that are important 
to our Metro region and important to the Federal Government in 
terms of making sure that we get the Federal employees to be 
able to work productively, both in terms of the telecommuting 
and the transit options.
    On the telecommuting issue, I can tell you I, like you, 
visit many of the Federal agencies that are in my congressional 
district and I hear from employees about this issue frequently. 
And what I am surprised about is the unevenness of it in terms 
of the implementation. There are some agencies where people say 
the supervisors understand the program, they understand the 
benefits of the program, and they are very happy with it. In 
other places, the employees will say, gee, you know, my 
supervisor just doesn't seem to get it and is not responsive 
and isn't willing to work it out.
    And so the challenge for us is obviously to make sure every 
supervisor in the Federal Government understands the options 
and in fact the intent of the Congress here. And I think that 
what you have done with withholding in the Appropriations 
Committee should have an effect. I mean, if there is one way to 
get people's attention around this town, it seems to be to hit 
them in the pocketbook. And I wondered, I know you had a 
similar provision last year, at least in the House version. I 
don't know if it was in the final version. What has been the 
impact of that?
    Mr. Wolf. The impact was it was hard to really judge 
whether or not the figures were accurate. So we have done it 
again this year and have GAO setting the standards. So we now 
know what is the case this year and we will be able to see the 
improvement or lack of improvement monitored by GAO. And I 
think that was the failure. We did not have a monitoring 
device, we just had a--and I am not suggesting the agencies 
were not telling the truth, but whatever they said we just had 
to take.
    The SEC is doing an incredible job. The FCC does a great 
job. Some do very, very well. But we will know better this year 
because GAO will monitor and we know what the base, what the 
floor is. So we will be able to better tell you this time next 
year.
    Mr. Van Hollen. Right. Now, as I understand, the way you 
have it the withholding is limited to the agencies within the 
jurisdiction of--subcommittee. Is that right?
    Mr. Wolf. Correct. Yes. We didn't have any authority.
    Mr. Van Hollen. Is there any way to expand it more broadly 
throughout the--I mean, with the appropriations--similar 
language in, you know, all the Federal agencies through the 
appropriations process? Because frankly, one of the agencies I 
visited recently is not on this list, and it is one where 
employees were frustrated about the lack of----
    Mr. Wolf. Well, you could. I guess the chairman, you could 
have a general telework authorization bill covering 
governmentwide, or we could do it in an appropriation in full 
committee sometime.
    Mr. Van Hollen. Right. No, I know we could do an 
authorization. I just wondered, in the appropriations, if you 
did it across every Federal agency, it would get the attention 
not just of the four in the subcommittee, but more broadly. 
Because I think that is the most efficient and quickest way 
around here of getting people's attention.
    So I don't know, maybe in conference there would be a way 
even to expand it more broadly to all Federal agencies.
    But I want to thank both of you for your leadership on this 
issue. It is an important issue and, as you say, you can just 
rattle down the list of all the categories this is a win in--
environment, transportation, productivity, and the like. So 
thank you very much.
    Thank you, Mr. Chairman.
    Mr. Moran. You are right, Mr. Van Hollen, with regard to 
appropriations committees. We had a problem with regard to the 
transit benefit and the Department of Labor; the Secretary of 
Labor determined that only employees who were not members of 
the Federal Employees Union were eligible to receive the 
transit benefit. Her reasoning was that it should be part of a 
collective bargaining agreement if they were going to get the 
benefit as a member of the union. So we took care of that in 
the appropriations bill. You can find reference to 
telecommuting pretty consistently, I think, throughout the 
transportation appropriations bills and will continue to do 
that.
    But this committee's work is necessary to give it the 
authorizing foundation, and that is why it is so important to 
have this kind of hearing today.
    Mr. Porter. Thank you very much. We appreciate you being 
with us today, Congressman Wolf and Congressman Moran.
    Oh, I think we have Chairman Davis. Something you would 
like to add before we let the witnesses leave?
    Mr. Davis of Virginia. Well, let me just--thank you, Mr. 
Porter for holding the hearing, and let me thank my colleagues. 
They have been out front on this whole idea of telecommuting. 
But with gas prices up where they are at this point, it just 
makes more sense than ever to offer the incentives and 
disincentives for Federal agencies to take advantage of this.
    You know, the private sector has been using telecommuting 
like crazy. You go out to some of these buildings in northern 
Virginia, people that are in cubicles and they are not there. 
They are at home with their laptops, they are out on the road. 
They can have a lot of utility. They don't have to be there. 
But the Federal Government's management style is if they don't 
see you, they don't think you are working.
    And we are losing a lot of productivity, we are losing 
people because of this. It is jamming the roads. It is so 20th 
century as the world moves onward. And this is an opportunity 
for us, I think, to step up to the plate. And the two gentlemen 
in front of us have really taken leads in this, and I just 
appreciate your being here today.
    Mr. Wolf. Thank you very much, Mr. Chairman. I want to note 
for the record, and this is not to, you know--everything that 
we have done in Virginia, the three of us--Mr. Davis, Mr. 
Moran, and myself have done together from the very, very 
beginning. And we are on different committees. So I want to, 
you know, pay tribute to Mr. Davis. There is nothing that we 
have done, my office or their office, where all three have not 
been connected. And I think the fact that the three of us for 
the northern Virginia region are working--and we also are 
working, the whole delegation, with the District and in 
Maryland--gives us the opportunity of working together. But Mr. 
Davis, and the fact that he is chairman of this full committee, 
has helped us, because when he holds a hearing, you can see 
things improving even in the agencies that come before 
appropriations.
    So I just want the record to show that Mr. Davis and Mr. 
Moran have been involved.
    Mr. Davis of Virginia. Although I think the record should 
show, and Jim would agree with me, that Frank was talking about 
teleworking before the laptop. I mean, even before he was 
redistricted out to further the balance of the State.
    Just one other thing. Thank you, Chairman Davis, and I 
couldn't agree more with what you and Frank have said and I 
appreciate the recognition that it has been a collegial effort 
on the part of the entire Washington area delegation.
    But Mr. Davis mentioned one thing about an employee and he 
mentioned it kind of off-handedly. But with regard to the 
legislative branch, we are a target, a terrorist target, and it 
is relevant to the business of telecommuting and teleworking. 
To the extent that we have the ability for our employees to set 
up computers, to have BlackBerry communication and so on in the 
event of a terrorist attack so that we can continue to 
function, that we have some redundant capability, that could 
prove to be very important. And so is a relevant consideration 
to this committee and to this legislative effort--I know it 
kind of falls under homeland security, but there is a real tie-
in as to how we can continue to do the public's work if in fact 
the worst imaginable were to occur and we were attacked here 
and were not able to occupy our offices.
    So, thank you.
    Mr. Porter. Congresswoman Holmes Norton, you had a comment?
    Ms. Norton. If I could say before these Members leave, I 
waived my opening statement because I thought they were going 
to make statements and leave. As a result of this colloquy, 
some of what I was going to raise I think--they told me 
something I did not know, and I would simply like to raise 
these matters before they leave. It is certainly the case that, 
particularly Mr. Wolf, but every Member of this delegation--Mr. 
Moran, the chairman, Mr. Davis--have been at the forefront 
nationally on telecommuting and have done the Nation a real 
service.
    I may say, I only learned, Frank, as a result of this 
colloquy here with Members that only four agencies were 
included, and that is because of your leadership in your 
committee. I was going to raise a question as to why OPM wasn't 
here. Now I know why. And I am amazed that we have been talking 
about telecommuting for almost two decades now and we have been 
talking about four agencies? I didn't even know that.
    I must say, Mr. Chairman, that I do think that we need an 
authorization bill for the entire government. And now that I am 
learning the reason is because an appropriator took the 
leadership, I can say already this hearing has advanced us. Now 
I know why. I was going to criticize us for not having OPM here 
and--Transportation here. As a result of the questions asked by 
my colleagues, I understand why.
    The chairman in holding this hearing is engaging in a very 
important act of public responsibility, because this is the 
biggest work force in the country, by far. And I agree with Mr. 
Wolf. You see progressive companies using telecommuting. They 
figured out how it enhances the bottom line and efficiency at 
the same time. And now I understand at least one reason why the 
Federal Government hasn't been as much on the case as Mr. Wolf 
and others have. And so my question was, you know, what is the 
reluctance here?
    I do think we need more information since, yes, there has 
been some indication that there is some reluctance among those 
who could use it to use it. I don't know if that means we need 
to do some kind of survey or GAO report. But if there is 
reluctance, I would like not to assume the reason. I would like 
to know more about the reason. I would like to know if 
employees, for example, understand the advantages, have had the 
idea marketed sufficiently to them.
    And yes, I must say I agree with Mr. Wolf. I am sure we 
have some old-fashioned supervisors and managers who think that 
if you don't see them, they are not working. I can't agree with 
you more. You can tell the output and the increases in output 
from the data that is already available from the private 
sector.
    We have 200,000 Federal employees come to this city alone. 
And again, with the leadership of this delegation, there are 
transit benefits that have, I would say, eased this problem, 
except that Metro has become so popular that the problem of the 
roads now is also a problem of Metro.
    There is pending a bill that the chairman has introduced 
that is absolutely critical to having a comprehensive approach 
to this. And this bill, a bill in which all of us are 
cosponsors, would keep us from having a broken-down system that 
cannot carry these employees back and forth. And the reason 
this bill has been introduced in the House, in the Congress, is 
because Metro in this region is chiefly for the benefit of 
Federal employees.
    Now, this requires local jurisdictions to meet the terms 
that the chairman has set because he knows we have no chance of 
getting the funds to fix Metro if we do not. When I say ``fix 
Metro,'' I don't mean fixing all the broken-down cars, I mean 
people can't get onto Metro. I mean there are people who 
cannot, perhaps, telecommute or who will travel in any case, 
who simply can't get on it or find it so crowded that they go 
back to their cars.
    So I just want to say while my regional members are here 
that the District will be coming forward, the Mayor will be 
announcing that we are ready to put a bill before the Council 
that would in fact initiate the beginning of a regional set-
aside so that Metro, the only system that does not have a 
dedicated funding source, would have one. If we don't, then 
what the chairman has done and all of us, of course, on this 
bill will be a waste. It is going to be hard enough to get it 
through. I think we can get it through if the region steps up 
and does what it is supposed to do.
    Finally, let me say we have to get to what Frank is talking 
about, because telecommuting is something we could do now and 
we spread this throughout the government, it will be taken up 
all over the government just like this. How much, we don't 
know, but we know it will vastly improve by simply making it 
governmentwide.
    But if I may say so, Mr. Chairman, you know, the notion of 
the need for alternatives that are within our technological 
reach has now come home to roost. Whatever we do with 
telecommuting, there is no way to get beyond the fact that the 
most advanced nation technologically and scientifically has 
paid almost no attention to alternatives to the present system 
of traveling on the roads or, for that matter, by mass transit.
    If I may say so as well, some of what we ought to be doing 
in Federal buildings on conservation, on cutting down 
consumption, we are not doing. And unless we do them, do all of 
these things--the telecommuting, that is a straight-out savings 
on consumption. Cutting down consumption in Federal buildings, 
doing conservation so that we really mean it, unless we put all 
of that together, working on this piecemeal is not going to do 
what we are capable of doing. And one way not to work on this 
issue of telecommuting piecemeal is to make sure it is 
available governmentwide to every Federal agency.
    Thank you very much, Mr. Chairman.
    Mr. Porter. Thank you very much.
    We have votes in approximately--actually started, so we 
have about 9 minutes. We want to say thank you very much to the 
Members for being here. We appreciate your testimony.
    What I would like to do is do a quick introduction of the 
newest member of our committee, Jean Schmidt. I believe she was 
here a moment ago--and left. So we will come back in 
approximately 30 minutes. So we are in recess. Thank you.
    [Recess.]
    Mr. Porter. I would like to bring the meeting back to 
order. If you haven't looked outside, it is raining really 
hard. It is absolutely pouring. I hope you brought your boat 
with you today.
    I want to thank you for your patience. Again, I appreciate 
you all being here today. We, of course, were called for votes 
on the floor and may be called again, but hopefully it won't be 
within the next hour.
    So I would like to begin, as we traditionally do, is to 
administer the oath of office to all the witnesses. So if you 
would all please stand, both panels two and three.
    [Witnesses sworn.]
    Mr. Porter. Thank you very much. Let the record reflect 
that witnesses have answered in the affirmative.
    Now I would like to begin with our second panel of 
witnesses. Thank you for coming forward. The panel will now be 
recognized for opening statements. We would ask you to 
summarize your statement in approximately 5 minutes. Any fuller 
statement you may wish to make will be included in the record.
    First we will hear from Mr. Daniel Green, Deputy Associate 
Director for the Employee and Family Support Policy at OPM.
    Thank you. Appreciate you being here, Mr. Green.

   STATEMENTS OF DANIEL A. GREEN, DEPUTY ASSOCIATE DIRECTOR, 
   CENTER FOR EMPLOYEE AND FAMILY SUPPORT POLICY, OFFICE OF 
PERSONNEL MANAGEMENT; AND DANIEL P. MATTHEWS, CHIEF INFORMATION 
           OFFICER, U.S. DEPARTMENT OF TRANSPORTATION

                  STATEMENT OF DANIEL A. GREEN

    Mr. Green. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today on behalf of the Office of 
Personnel Management to talk about the issue of mitigating the 
impact of high gas prices on Federal employees. President Bush 
demonstrated his commitment to fuel conservation by directing 
Federal agencies to conserve natural gas, electricity, 
gasoline, and diesel fuel to the maximum extent consistent with 
the effective discharge of public responsibilities. I will 
focus on the work that OPM has accomplished in helping Federal 
agencies understand and implement the human capital 
flexibilities available to them to comply with the President's 
directive.
    On September 2, 2005, in the wake of the destruction caused 
by Hurricane Katrina and the soaring fuel prices that followed, 
Director Springer issued a memorandum to heads of executive 
departments and agencies highlighting these human capital 
flexibilities. This memo focused primarily on telework for its 
potential to reduce the need for employees to commute. It urged 
agencies to continue to increase the use of telework, 
carpooling, and public transportation by employees and provided 
further information about telework resources and support, 
including an announcement that GSA-sponsored telework centers 
would be free to new Federal users through the end of the year.
    In addition, the memo mentioned other options such as 
vanpooling, shuttle services, public transportation, and 
transit subsidy programs, as well as using technical solutions 
such as conference calls, video conferencing, and e-mail 
exchanges.
    Taken together, these measures applied by agencies 
according to their own missions and work forces could 
substantially reduce the impact of the fuel costs on employees 
and reduce overall fuel consumption.
    On September 21, 2005, a governmentwide agency telework 
coordinator meeting focused on telework as a human capital 
flexibility in broader emergency response situations. A panel 
comprising representatives of the Federal Emergency Management 
Agency, the General Services Administration, OPM, and the GSA-
sponsored telework centers discussed telecommuting in the 
context of Continuity of Operations Planning with an audience 
of over 60 Federal agency telework coordinators.
    These activities specifically addressing the high gas 
prices rest on a foundation of intensive work on the part of 
OPM to support the telework program governmentwide. The 
September 21 event was part of a regular quarterly series of 
meetings cosponsored by OPM and GSA. These meetings bring 
agency telework coordinators together to work collaboratively 
with OPM and GSA to network and share program ideas and 
concerns, raise unique agency issues, and give OPM and GSA the 
opportunity to educate agency representatives on new 
initiatives.
    Staff from OPM also provide agencies with individualized 
guidance and technical support through onsite visits. Through 
these visits to agencies, OPM consults with them to enhance and 
further develop their telework program by identifying problem 
areas, addressing concerns and challenges unique to them, 
providing policy guidance, and exploring specific and tailored 
solutions to the agency's issues. It is at these face-to-face 
encounters with agency representatives that OPM provides 
individualized technical support, including encouraging the use 
of telework as a tool to meet agency human capital goals. In 
2005 alone, OPM has conducted onsite visits with 13 agencies.
    As befits a program that promotes remote work, OPM has a 
variety of electronic approaches to promoting and supporting 
telework. These include a Web site, e-learning modules, a 
listserv used to communicate information, guidance, news, and 
events regarding telework to subscribers throughout the Federal 
Government.
    Finally, another workplace flexibility, alternative work 
schedule programs such as flexible work schedules and 
compressed work schedules, has the potential to assist 
employees in reducing fuel consumption because employees are 
able to fulfill their bi-weekly work requirements in fewer than 
10 days, which results in fewer days employees must commute to 
and from work. OPM provides AWS guidance to agencies through 
our Web site and direct consultation.
    That concludes my remarks. I would be pleased to respond to 
any questions the subcommittee may have.
    [The prepared statement of Mr. Green follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.020
    
    [GRAPHIC] [TIFF OMITTED] T5706.021
    
    [GRAPHIC] [TIFF OMITTED] T5706.022
    
    Mr. Porter. Thank you, Mr. Green. We appreciate that.
    Mr. Matthews.

                STATEMENT OF DANIEL P. MATTHEWS

    Mr. Matthews. Mr. Chairman, Mr. Davis, and members of the 
subcommittee, I am pleased to be here today on behalf of the 
Department of Transportation to discuss the issue of mitigating 
the impact of high gas prices on Federal employees. My emphasis 
will be on the long term and our longstanding practice of 
avoiding excessive fuel consumption among our employees.
    One way we encourage this is by offering all Federal 
employees a mass transit fringe benefit program where the 
employee can receive up to $105 a month for taking mass 
transportation to and from work. This benefit can be used for 
the Metro, for buses, and vanpools.
    My specific focus today is another way in which DOT 
discourages gasoline use: the practice of telecommuting by our 
employees. According to government data, some 44 million people 
go to work by turning on their computers or by picking up their 
phone.
    The need to encourage telecommuting has never been greater. 
Supplies of gasoline are projected to be tight for some time, 
hurricanes Katrina and Rita sent the price of gasoline, already 
high, to well over $3 in many of our communities.
    Mitigating the impact of disaster is another reason for 
telecommuting. When disaster strikes, there is less chance of 
vital government services being disrupted if the employees are 
geographically dispersed. Telecommuting can thus help maintain 
continuity of operations for critical governmental functions.
    The 2001 DOT Appropriations Act requires its agencies to 
establish policies by which employees can telecommute. In 
establishing the DOT telecommuting policy, Secretary Mineta 
noted that telecommuting offers a work flexibility and 
management tool that can assist all of us in better managing 
our work, personal, and community lives. The goal is to reap 
the benefits of telecommuting without diminishing workplace 
efficiency or the work ethic of our employees.
    In 2004, the Office of Personnel Management conducted a 
telework survey of the DOT agencies. The survey tallied the 
number of personnel in each agency who are eligible to 
telecommute, and how many actually do telecommute. Of the 
Department's 57,000 employees, 46 percent are eligible for 
telecommuting. The agencies with the highest rates of 
participation are the Federal Transit Administration and the 
Federal Railroad Administration. Fully 59 percent of the 
Transit employees are eligible, and of these 55 percent do 
participate. Federal Railroad employees are eligible to the 
tune of 57 percent, and they telecommute at 54 percent of that 
total.
    Given its high participation rates, let me expand on the 
Federal Railroad Administration program. The FRA field force of 
over 500 employees, geographically located in eight regions, 
oversees the safety of a huge U.S. network of railroad lines. 
The nature of railroad safety inspector work demands spending 
little time in a traditional office setting. This made it 
logical to generate savings through the telecommuting effort by 
closing field offices and reducing space in existing 
facilities.
    FRA's telecommuting policy covers all FRA employees. 
Participation is based on job content rather than job title, 
and each office developed its own implementation plan.
    Telecommuting has also been used in DOT by employees with 
medical problems, for review of legal documents, for accounting 
functions, amongst others.
    Various DOT agencies provide users with the necessary 
equipment. Federal Motor Carriers supplies 802.11 wireless 
networking for its border control offices. The Office of the 
CIO offers PC cards for Internet connectivity. NHTSA, FAA, the 
Pipeline and Hazardous Materials Safety Administration, and 
Railroads all supply wireless cards on laptops for connecting 
to the Internet.
    But much more work needs to be done to encourage 
telecommuting. Two particular barriers that have hindered its 
greater use are expanding the technology base and management 
adoption of the idea.
    Regarding the technology base, we need to address the 
ability of residential network services to provide sufficiently 
robust connectivity for home-based teleworkers. While 67 
percent of urban and suburban residents have Internet access, 
much of that is dial-up, which is quite slow for business 
purposes. Broadband access is a necessary component to expand 
telework.
    Security is another issue. Any telecommuting program must 
have stringent requirements to protect government assets as 
networks are opened up to accommodate the home-based workplace.
    As for management adoption of telecommuting, we need to 
demonstrate not only that productivity does not suffer when 
employees work from home, but that work efficiency and employee 
morale benefit from such a transformation.
    In summary, DOT has an effective telecommuting program in 
place. It has increased the adoption of telecommuting while 
enabling eligible employees to perform their work effectively. 
Moreover, we expect adoption of telecommuting by employees and 
managers to grow further as broadband capabilities are 
extended. With this additional connectivity, more employees 
will spend what used to be their drive time as telework time.
    This concludes my remarks. I would be pleased to respond to 
any questions the subcommittee may have. Thank you.
    [The prepared statement of Mr. Matthews follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.023
    
    [GRAPHIC] [TIFF OMITTED] T5706.024
    
    [GRAPHIC] [TIFF OMITTED] T5706.025
    
    [GRAPHIC] [TIFF OMITTED] T5706.026
    
    [GRAPHIC] [TIFF OMITTED] T5706.027
    
    [GRAPHIC] [TIFF OMITTED] T5706.028
    
    [GRAPHIC] [TIFF OMITTED] T5706.029
    
    Mr. Porter. Thank you, Mr. Matthews. We appreciate you 
being here.
    My first question, Mr. Matthews, is actually for you. We 
had testimony earlier regarding the transit--make sure I get 
the right term--but the $105 amount for commuting costs. Is 
that an adequate amount? Should we be doing something else to 
help with that?
    Mr. Matthews. The $105 transit benefit that is given to 
employees, or made available to employees, is a significant 
amount of money for the transportation. A thought that occurs 
to me is that providing high-speed connectivity to people for 
telecommuting may be something that the committee would want to 
consider, and either amending the amount or including a 
provision that would allow expenditure of those moneys to 
provide connectivity to homes.
    Mr. Porter. Mr. Moran had talked earlier about a fee--I am 
not sure if this was the one he was referring to. Were you here 
earlier for his testimony?
    Mr. Matthews. Yes, sir, I was.
    Mr. Porter. And he had suggested that we look at--I can't 
remember the term. As far as the free parking as compared to 
telecommuting and telework? Can you tell me a little bit about 
that, in your perspective?
    Mr. Matthews. As I recall, Mr. Moran mentioned the--
allowing employees free parking somewhere with a $200 a month 
value, as opposed to only providing $105 in transit benefit----
    Mr. Porter. If I may interrupt you, was he suggesting that 
is almost encouraging more automobile travel? Or not?
    Mr. Matthews. Well, I think that is certainly a thought 
that is behind his comment. I also inferred from that he may be 
alluding to the fact that why would we not have transit benefit 
equal to the free parking.
    Mr. Porter. And your feelings about that?
    Mr. Matthews. I do believe that additional moneys made 
available for telecommuting, whether it is through the Federal 
transit benefit program or some other method, would be useful 
in helping people connect their home at a high-speed level. 
Today's computers using heavy graphics at the presentation 
layer in essence require high-speed connectivity. Usually that 
cost, at around $40 to $50 a month, depending on the provider, 
is sometimes seen as prohibitive when people can have dial-up 
for the regular connection fee to their telephone.
    Mr. Porter. This is really a question for both of you 
gentlemen. That has to do with, you know, the availability of 
the equipment infrastructure for their home. Is there anything 
available now to help--I know it was touched upon, but anything 
to help ensure offsite telework centers are available via their 
home? Is there something else--some things that we can be doing 
with their own facilities?
    Mr. Matthews. At the Department of Transportation the last 
several years, we have been refreshing technology and moving 
away from desk-side computers to laptops. That will allow 
employees to disconnect the device and to take it home so that 
they can perform their functions from home using laptop. Not 
just from home, I might add, but from anywhere where they can 
get connectivity.
    Mr. Porter. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. OPM, both as an 
individual agency and as a promoter of telework throughout the 
government, does encourage and counsels agencies and employees 
to make use of all available resources. I know one of the 
things that we use at OPM is to use computers, as they turn 
over and a new computer is bought, onto a disk to have that 
backup computer, which is usually just as good as the 
replacement computer. We provide that to an employee to take 
home and fit it with the correct software and the security 
software that is important to protect data from corruption or 
from bugs and viruses.
    Mr. Porter. You know, I think I still have a 286 at home.
    Mr. Green. I do, in the basement.
    Mr. Porter. Dial-up doesn't make a whole lot of difference 
with the equipment.
    Are there any privacy challenges or--I guess, two 
questions. The privacy question regarding the hard drives and 
what is in the equipment in one, and if there are concerns with 
that. But No. 2, is it easy for an employee to be able to get 
ahold of one of the older computers if they so choose?
    Mr. Green. Of course that depends upon the agency's 
situation. An overhauled computer is always available when an 
agency is going through a cycle of updating their equipment, 
and then you do have quite a few of those. Sometimes not so 
much. But computers last a long time. They really do. And 
employees and agencies can use quite a bit of initiative to 
make telework work when they are encouraged and want to do so.
    Mr. Porter. I am going to take this a step further. It 
really isn't related to telework. But there must be thousands 
of these computers around that have been replaced. Do we have a 
system, to your knowledge, either one of you gentlemen, in the 
Federal Government to maybe provide some of these computers to 
schools and to younger folks also that maybe would not normally 
have access to computers? Is there something in place with the 
Federal Government?
    Mr. Matthews. The disposition of used or outdated equipment 
does allow the Federal agency to donate them to schools. The 
Department of Transportation has for several years been 
involved in supplying them to schools that have a need for 
outfitting of computer gear. Indeed, I think tomorrow I have 
another meeting for that specific subject for a school, I 
believe in Pennsylvania.
    Mr. Porter. And again, this is off the subject, but on the 
issue of technology, do you actually have a system in place 
that provides for this or is it just whenever there's enough 
computers around you find a school that would like to use them? 
Or do you actually have a system?
    Mr. Matthews. There is a process inside the Department. 
Needs are identified and then we do what we can to accommodate 
them based on the amount of inventory for surplus computers 
that is available. You do have to go through the process. 
Again, there is privacy, so you have to wipe disks clean, you 
have to make sure the memory is clean, and then provide them 
outside the government.
    Mr. Porter. Mr. Green.
    Mr. Green. Mr. Chairman, it is my understanding that GSA 
has a surplus property program for donating computers to 
schools and similar organizations. But I defer to them on the 
specifics of that program.
    Mr. Porter. That is OK. I just thought maybe off the top of 
your head. I appreciate that.
    Mr. Davis, any questions?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Green, we have had witnesses testify that the Federal 
Government seemed to be lagging behind the private sector in 
the D.C. area. As a matter of fact, there are some figures that 
suggest that 15 percent of the private-sector employees 
telecommute and 12 percent Federal Government. Would you say 
that the Federal Government has a functioning telecommuting 
program in place?
    Mr. Green. Congressman, yes, I believe so. We collect 
statistics each year on telework usage and availability in 
Federal agencies, and every year the numbers are going up. Are 
they where they optimally could be? No. But they are going in 
the right direction, and OPM has many programs. We are working 
very hard to assist Federal agencies to raise their telework 
numbers to the optimum advantage of both the agency and the 
employee.
    Mr. Davis of Illinois. So you are saying that OPM does play 
a role in promoting the concept with other agencies?
    Mr. Green. A very significant role, with our partners, GSA. 
Yes, sir.
    Mr. Davis of Illinois. Would that be training, workshops, 
or management or----
    Mr. Green. All of those things. Yes, sir, we provide a 
training, Web site-based training, we have a staff that goes 
and visits with each agency--we visited 15 agencies in the past 
year--and discussed their specific needs and requirements, and 
work with them to find solutions to those needs. We have 
training for managers as well as for employees. We have 
``webinars.'' We have a complete Web site that has links to all 
sorts of information on telework, and we collect statistics, an 
annual report on telework usage by agencies. And one final 
thing, by law there is required to be a telework coordinator at 
each agency, and we meet with those telework coordinators four 
times a year. The last one, as I mentioned, was on continuity 
of operations, and we had--I can't remember exactly the number, 
but about 80 or so agencies represented there.
    Mr. Davis of Illinois. Do we have data on the percentage of 
Federal personnel that is eligible to be engaged in----
    Mr. Green. Yes, sir, we have numbers of eligible employees 
that are eligible for telework as set by agency rules, and we 
collect information on the number of eligibles that do 
telework, yes, sir.
    Mr. Davis of Illinois. Could you tell me what those show?
    Mr. Green. Yes, sir, I have that. But if I may, I would 
like to be able to provide you a complete set of information 
for the record.
    Mr. Davis of Illinois. OK. We would appreciate that.
    Mr. Green. Thank you.
    Mr. Davis of Illinois. Mr. Matthews, could I ask, the mass 
transit benefit program, is this considered the same way any 
other fringe benefit would be considered for an employee? That 
is, if your salary is $37,000 and you get $105 for the mass 
transit benefit, would that mean that your salary is--or your 
compensation is actually $38,000? Is that the way it works?
    Mr. Matthews. Mr. Davis, I will get you the definitive 
answer. I believe it is not included in your salary 
calculations for the tax purposes. But I will get you the 
definitive answer. I don't think somebody considers it part of 
their salary when they get it, when they apply for it and 
receive it.
    Mr. Davis of Illinois. And the purpose, really, is not to 
promote telecommuting, I wouldn't imagine, but to reduce 
congestion, to do something else--I am saying to get some of 
the automobiles off the highways, to get rid of some of the 
pollution.
    Mr. Matthews. I agree with you, sir. It is intended to 
alleviate congestion, also get pollutants down. That is what 
its original intention was. Telecommuting, however, helps those 
that have to come in to the office. Here on the Hill, you can't 
miss a session, you can't telecommute to the session, 
certainly. And it would probably be nice if some of the rest of 
us stayed home and worked so that it would be a faster trip in 
to the Capitol, sir.
    Mr. Davis of Illinois. Probably they would prefer Members 
of Congress stayed home permanently. [Laughter.]
    Especially during the holiday season.
    Do we have data--I mean, does everybody use this? How many 
people are actually using it? Are there some people saying, 
well, you know, I don't want to ride the train, I will just 
continue to use my traditional method of getting to and from 
work?
    Mr. Matthews. I can get you the numbers how many employees 
of the Department of Transportation use the Federal transit 
benefit. It is a sizable percent of the population. After 
having arrived downtown to work, I get off to get one of the 
SmartCards on the Metro and rarely do I take my car out of the 
garage anymore. I do use the card. I have never applied for 
transit benefit. I pay for the trips myself. But a lot of 
employees do use it, and its intention is to get cars off of 
the road, sir. And I will get you the information for the 
record.
    Mr. Davis of Illinois. Well, thank you very much, Mr. 
Chairman. I think it is a great approach. As a matter of fact, 
I use the train sometimes just to come in and back and forth to 
the airport. I mean, especially during rush hours, I find that 
I can get from the airport to my office faster using the Metro 
than I can taking a taxi or waiting for somebody to pick me up. 
I think it makes an awful lot of sense, and I would just like 
to know how many people actually are using it because I would 
like to encourage more to do so.
    Mr. Matthews. Yes, sir.
    Mr. Davis of Illinois. I have no further questions, Mr. 
Chairman.
    Mr. Porter. Thank you, Mr. Davis. And thank you, gentlemen, 
for being here today. Appreciate your testimony. And for all of 
those witnesses, please note that your full statements will be 
entered into the record, with no objection.
    Mr. Green. Thank you.
    Mr. Porter. Thank you.
    Mr. Matthews. Thank you.
    Mr. Porter. Now I invite up the third panel. Please note 
that you will all be recognized for 5 minutes, and any fuller 
statements you may wish will be entered into the record.
    First, we will be hearing from Tom Calcagni, the managing 
director for public relations of the American Automobile 
Association [AAA]. After Mr. Calcagni, we will hear from Mr. 
William Mularie, chief executive officer of the Telework 
Consortium. Then we will be pleased to hear from Mr. Steve 
O'Keeffe, executive director of the Telework Exchange. Last but 
definitely not least, a good friend mine from Las Vegas, Mr. 
Steve Hill, president/owner of Silver State Materials.
    So we will begin with Mr. Calcagni. Welcome. We appreciate 
you being here today. You have approximately 5 minutes.

STATEMENTS OF THOMAS F. CALCAGNI, MANAGING DIRECTOR FOR PUBLIC 
 RELATIONS, AMERICAN AUTOMOBILE ASSOCIATION; WILLIAM MULARIE, 
 CHIEF EXECUTIVE OFFICER, TELEWORK CONSORTIUM; STEVE O'KEEFFE, 
  EXECUTIVE DIRECTOR, TELEWORK EXCHANGE; AND STEVEN D. HILL, 
               PRESIDENT, SILVER STATE MATERIALS

                  STATEMENT OF THOMAS CALCAGNI

    Mr. Calcagni. Thank you, Mr. Chairman. AAA appreciates your 
invitation to appear today before this subcommittee.
    Mr. Chairman, the rapid rise in gasoline prices this year, 
as noted by members of this subcommittee, has had an impact on 
all of us, from those commuting to work to families planning 
vacations, from businesses dependent upon vehicle fleets to 
truckers moving goods across our Nation. Part of the focus of 
today's hearing is to understand whether the Federal Government 
is doing enough to promote programs to encourage employees to 
use alternative methods of working or getting to work, such as 
public transit and telecommuting. AAA commends the subcommittee 
for exploring this important issue.
    AAA strongly supports the use of public transportation. 
Many of our AAA clubs throughout the country encourage members 
to use public transit as a way to conserve fuel and to save 
money. In AAA's Washington, DC office, for example, almost half 
of our employees use public transportation to get to and from 
work. But the fact remains that most people continue to commute 
to work using a personal vehicle. According to the Daily Travel 
Quick Facts from the Bureau of Transportation Statistics, 9 out 
of 10 of us use a personal vehicle to get to and from work. And 
yet, despite this reliance on personal vehicles for 
transportation to our jobs, only 15 percent of the total daily 
driving trips in the United States involve commuting to work.
    There is growing evidence that Americans are beginning to 
realize they can exercise greater control over the impact high 
gas prices are having on their lives. A recent survey conducted 
by AAA of northern California examined drivers' attitudes about 
reliance on gasoline and explored possible solutions. What the 
survey found was quite revealing. While 8 out of 10 respondents 
believed the oil companies, auto manufacturers and the Federal 
Government have not done enough to help consumers reduce their 
reliance on gasoline, respondents also agree they personally 
could do more to reduce the amount of gasoline they use. Not 
surprisingly, however, commuters say they feel most constrained 
when it comes to changing the amount they drive, while those 
using a vehicle for personal or family reasons say they have 
more flexibility in reducing their daily driving trips.
    As a result of these findings, AAA of northern California 
recently launched what it calls a Green Light Initiative 
intended to help motorists make sense of all the new options 
available in alternative fuels and in vehicles and to encourage 
the development of wise transportation choices.
    Other AAA clubs across the Nation also are taking steps to 
work on this situation. For example, AAA southern New England 
is represented on the Rhode Island Transportation Advisory 
Council and has long supported efforts to promote mass transit 
in that State. And AAA Mid-Atlantic operates and sponsors two 
commuting-employee vanpools in conjunction with the 
Transportation Management Association of Delaware.
    More broadly, AAA clubs across the country make available 
to members and the public the AAA Gas Watchers Guide, which I 
understand you may have a copy of. Now, this encourages people 
to reduce gasoline consumption by using public transportation 
when feasible, driving more fuel-efficient vehicles, 
maintaining their vehicles, and changing their driving 
behaviors.
    Besides the information contained in the Gas Watchers 
Guide, AAA also maintains three Web sites devoted to fuel 
information, and many AAA clubs link to these sites from 
aaa.com. And I believe there is more information on these sites 
in my written testimony.
    Mr. Chairman, AAA believes that while more flexible options 
for commuting are desirable, the choices we all make about how 
we drive and what we drive, how we maintain our vehicles, how 
we plan our driving chores--every trip, every time--ultimately 
will have the most impact on reducing gasoline consumption.
    Moreover, as AAA has stated previously in testimony to 
Congress, this Nation needs a thoughtful energy policy that not 
only addresses supply issues, but also encourages actions and 
policies that help to encourage conservation. We need to 
explore impediments to gasoline supplies, such as reducing the 
number of so-called boutique fuel blends, but we need to do so 
without compromising our clean-air goals. And we need to 
support the development and use of more fuel-efficient vehicles 
and alternative fuels to help ensure future supplies of energy 
for the health, safety, and prosperity of the American people.
    Again, Mr. Chairman and Mr. Davis, AAA appreciates this 
opportunity to share our views on this important issue with the 
subcommittee, and I would be happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Calcagni follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.030
    
    [GRAPHIC] [TIFF OMITTED] T5706.031
    
    [GRAPHIC] [TIFF OMITTED] T5706.032
    
    [GRAPHIC] [TIFF OMITTED] T5706.033
    
    Mr. Porter. Thank you, Mr. Calcagni. We appreciate your 
testimony.
    Also, for those that are here for the first time, please 
note that Members will be coming and going and many have other 
meetings. But all of your statements will be included in the 
record for our future deliberations.
    Again, thank you very much.
    Mr. Mularie, welcome.

                  STATEMENT OF WILLIAM MULARIE

    Mr. Mularie. I also thank you, Chairman Porter and members 
of the subcommittee, for this opportunity to testify on this 
very important issue.
    I represent the Telework Consortium. We are a nonprofit 
Virginia corporation, government-funded through a grant from 
the Department of Commerce. Our grant is to promote the 
practice of telework, principally through pilot demonstrations 
using advance telecommunications technology.
    Now, some of the observations I will give to you up front. 
I think we all agree that the costs associated with commuting 
by car for Federal and other workers, in this area in 
particular, are at very critical levels. What we are talking, 
really, about are families in crises. But I suggest that the 
high fuel cost is one of the many cost factors that should 
cause us to question the relevance of the commuter model--as 
Congressman Wolf said, leaving home in the morning, strapping 
yourself in a metal box, and going to a place, and then 
repeating that at night.
    What we in the Telework Consortium believe is this 
fundamental commuter model has to change and change in the 
direction of a distributed entity, whether it be a government 
agency or corporations. The model that we are currently 
following, the commuter model, is really rooted in the 
industrial age and is increasingly costly--as this committee 
has brought out, not only in dollars but also, as Congressman 
Wolf said, in terms of family structure and increasing our 
vulnerability with respect to continuity of operations.
    As an old physicist, I like to do sort of calculations to 
see what we are doing in terms of cost and the affordability of 
what we are talking about here. So if you will bear with me, I 
just want to run briefly through some costs.
    A commuter who drives a mid-size car and commutes, let's 
say, 20 miles each way a day, assuming a 20-mile-per-gallon 
average in this automobile, and let's assume that he or she 
drives 75,000 miles over 5 years, using the AAA numbers, 
actually, for depreciation, insurance, and such, with gas at 
$1.25 a gallon, this commuter pays about $6,400 a year to 
commute for the purpose of going to and from work. With gas at 
$3 a gallon, it is about $7,300 a year. And with free gas, if 
you gave them free gas, it would be about $5,500 a year.
    The conclusions are the relative fixed costs of 
depreciation, insurance, license, maintenance, as well as 
gasoline, are really hurting us greatly. But gasoline happens 
to be the one that is most visible. That display on the gas 
pump, we can't really get away from that and it really demands 
immediate satisfaction. And if one could imagine a total cost 
pump, where when we fill up with gas we would also collect the 
amortized cost of the other cost components, then your mid-week 
fill-up would be probably like $180 a fill-up.
    But what I want to do in terms of a simple calculation is 
look at the affordability of this commuting action. If you have 
a GS-12 in government who makes about $65,000 a year, 23 
percent Federal tax rate, 9 percent State, takes home about 
$750 to $800 a week, at $1.25 a gallon, this Federal worker 
takes over 2 months of his net pay to pay for the commuting, 
just the action of commuting--2 months pay to go to and from 
work. And at $3 a gallon, it takes about 2\1/2\ months.
    So our conclusion, anyway, is the crux of the problem is 
that commuting by car to and from a workplace is the problem, 
that there is nothing one can do to mediate that. So obviously 
the Telework Consortium is focused on telework as a solution 
set for this.
    Now, there was some discussion in terms of what is 
happening in the commercial market versus the government. What 
we have done in the Telework Consortium in our funding of 
several pilots is work both with government--local government, 
Federal Government--and small companies in a different vision 
of the workplace in that the work is done by people in 
different physical locations using PC-based multimedia software 
connected over the public Internet.
    And I just want to show you one work product. This magazine 
was made by a publisher in Loudoun County, where their people 
did not see each other. This was done completely over the 
Internet with multimedia software in terms of the creation, 
editing, and publishing.
    So this is serious stuff. This means that you can in fact 
run a company without commuting to a place. And we are working 
very closely with our Loudoun County government. Their Budget 
Department, for example, they have people spread over 100 miles 
and they are using these multimedia telecommunications assets 
to do work differently.
    So those are my comments. I would be happy to answer any 
questions. Thank you.
    Mr. Mica [presiding]. Thank you. And I a guess we will 
defer till we have heard from all the panelists.
    The next panelist is Steve O'Keeffe. And Mr. Steve O'Keeffe 
is executive director of Telework Exchange. Welcome, sir, and 
you are recognized.

                  STATEMENT OF STEVE O'KEEFFE

    Mr. O'Keeffe. Good afternoon. Mr. Chairman, Mr. Ranking 
Member, and members of the subcommittee, thank you for the 
opportunity to testify today. My name is Steve O'Keeffe and I 
am the executive director of the Telework Exchange.
    The Telework Exchange is a public-private partnership 
focused on increasing awareness and adoption of telework in the 
Federal Government. The organization concentrates on 
demonstrating the tangible value of Federal telework 
initiatives, serving the emerging education and communications 
requirements of the Federal community, as well as measuring 
Federal agencies' progress against telework requirements.
    Federal employees that register on the Telework Exchange 
Web site are provided a series of free services, including the 
ability to calculate their personal commuting costs and 
telework savings. Today the Telework Exchange has more than 
3,500 Federal employee members. We utilize the non-personal 
registration information from the Telework Exchange members to 
construct our data models. Federal commuting costs and telework 
benefit calculators appear on our Web page at 
www.teleworkexchange.com, and we poll our members as a sample 
for our studies. In addition, the Telework Exchange publishes a 
monthly magazine, the Teleworker, which focuses on the issues 
of Federal telework.
    We are here today to demonstrate the effect of high gas 
prices on the Federal work force. The gasoline price hikes of 
September 2005 drove a real income salary reduction of $526.25 
for the average Federal employee. The increases drove a 42.6 
percent increase in America's commuting costs. Importantly, we 
are here to underscore the fact that agencies need to 
accelerate their initiatives to build out robust telework 
programs to reduce the unnecessary commuting cost burden on 
Federal employees. Progress in this area has been too slow. 
Progress in this area will return significant dividends to the 
Federal Government as it struggles with recruiting and 
retention challenges.
    As Representative Davis noted in his opening remarks, the 
government faces issues on two fronts: retaining experienced 
knowledge workers and recruiting generation Y professionals to 
replace retiring personnel. These challenges are compounded by 
the complex logistics driven by the DOD transformation as 
manifest in the Base Realignment and Closure [BRAC] roadmap. 
Looking specifically at the Washington, DC area, BRAC promises 
to heap new misery on the Nation's Capitol area's already 
congested roadways.
    While I am here today to speak specifically about the 
impact of increasing gasoline prices on Federal employees, I 
would like to point to other profound benefits of telework for 
the Federal Government. Telework has critical implications for 
the Federal Government's continuity of operations preparedness. 
Recent natural catastrophes and pressing concerns about man-
made and pandemic threats mean that mainstream America is now 
very focused on understanding how our government is prepared to 
address disaster situations. As referenced in the April 28th 
Committee on Government Reform, House of Representatives 
oversight hearing, ``Who's Watching the COOP,'' telework is a 
central plank in agencies' Continuity of Operations Planning.
    As noted earlier, we are here today to discuss the 
implications of telework for the average Federal employee who 
routinely travels the 63 miles round trip to and from work each 
and every day. Telework presents employees with a convenient, 
productive alternative to commuting.
    Based on the Department of Energy statistics, East Coast 
gasoline prices surged from $2.14 per gallon in April to $3.05 
in September. The increased urgency to reduce the burden of 
high gasoline prices on the work force has pushed telework to 
the forefront as an imperative operating model for the Federal 
Government as well as the American labor force at large. These 
realities drove the Telework Exchange to generate a recent 
study entitled, ``Fuel Smart Economy: It's No Gas.'' The study 
is based on responses from Telework Exchange Federal employee 
members who travel the average 63 miles a day to and from work 
and drive vehicles that consume approximately 1 gallon of 
gasoline per 27\1/2\ miles traveled.
    Based on the study results, the total Federal Government 
work force spent $13.3 million on gasoline to commute each day 
in April. Driven by increased gas prices, this daily total 
surged to $19 million in September. This represents an increase 
of $526.25 in gasoline costs per annum for the average Federal 
employee commuting on the roadways. Please keep in mind, this 
is a representation of gasoline costs alone. This does not 
factor wear and tear on car, tolls and parking, maintenance, 
insurance, or any factors that are built into the Telework 
Exchange calculators as they contribute to total cost of 
commuting.
    To illustrate the impact of rising gasoline prices on 
Federal employee income, let me give you an example. A Federal 
employee at Grade 8, Step 4 pay level makes $37,263 per annum. 
In April 2005, that employee traveled the average 63-mile round 
trip, bought gasoline at $2.14 a gallon, and spent $1,235 per 
annum on gasoline alone, representing 4.73 percent of the 
Federal employee's after-tax income. Based on gasoline price 
increases in September, with an identical commute that same 
Grade 8, Step 4 Federal employee spent $1,761.25 per annum on 
gasoline alone.
    Telework offers myriad opportunities for Federal employees, 
the government, as well as the U.S. work force. Based on 
numbers from the Telework Exchange, Federal employees commute 
an average of 63 miles a day to and from work and spend $526.25 
more due to the increase in gasoline prices that took effect in 
September.
    The Telework Exchange today released a new study, ``No Free 
Ride,'' focused on telework awareness and total commuting 
financial as well as opportunity costs in the Federal 
Government. By teleworking 3 days a week, the average Federal 
employee would get an average of $6,348 annually back in his or 
her wallet. Please note, this factor figures the total cost of 
commuting, not merely gasoline prices. The study reveals that 
Americans spend more time a year in commuting than on vacation. 
With average savings of an hour per day, full-time teleworkers 
can earn an MBA 35 percent faster, read 25 books a year, clean 
out 83 closets, or train for a marathon with the time saved by 
not commuting.
    I would close by underlining the Federal Government must 
embrace the benefits of telework and focus efforts on removing 
an unnecessary financial burden on employees if it is to 
achieve success in recruiting and retaining the best and 
brightest, conserving energy and gasoline, as well as realizing 
robust business continuity preparedness.
    I would like to recognize and applaud the General Services 
Administration for its leadership and initiative in the 
telework arena. Specifically I would like to recognize Mr. 
Wendell Joice, Stan Kaczmarczyk, Billy Michael, and the Office 
of Governmentwide Policy for its proactivity and pragmatism in 
this area.
    While the cost of our government's failure to act is 
significant to the Federal work force, the broader costs 
associated with insufficient Continuity of Operations Planning 
are more profound. The time is now to make telework a 
mainstream operating practice for the Federal Government.
    Thank you again for the opportunity to testify. I will be 
happy to answer any questions.
    [The prepared statement of Mr. O'Keeffe follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.034
    
    [GRAPHIC] [TIFF OMITTED] T5706.035
    
    [GRAPHIC] [TIFF OMITTED] T5706.036
    
    [GRAPHIC] [TIFF OMITTED] T5706.037
    
    [GRAPHIC] [TIFF OMITTED] T5706.038
    
    Mr. Mica. I want to thank you for your testimony.
    We will hear from our last witness, Mr. Steve Hill, and he 
is president of Silver State Materials. Welcome. You are 
recognized for 5 minutes.

                  STATEMENT OF STEVEN D. HILL

    Mr. Hill. Thank you, Mr. Chairman, members of the 
committee. It is an honor to be here today.
    Chairman Porter asked me to come and speak today and 
provide some link to this conversation to the private sector, 
so my comments are in a completely different vein than most of 
the people who have spoken here today. They are also somewhat 
different in that I come from the construction industry, and 
most construction industry jobs do not lend themselves well to 
teleworking. Some do, and I think some strides have been made 
in those areas.
    I am the chairman of government affairs for the Associated 
Builders and Contractors and the Associated General 
Contractors, and also the incoming chairman of government 
affairs for the Las Vegas Chamber of Commerce. So I have some 
standing to speak for the general business community.
    In my written testimony I have outlined some information 
about the effects on my company. We are in the concrete and 
sand and gravel business. We run about 110 large trucks, 
several dozen smaller vehicles, some heavy equipment. We buy 
approximately 140,000 gallons of fuel a month. Our suppliers, 
in order to get the materials that we use in concrete to us, 
use a very similar amount of fuel for that transportation.
    So the ultimate fuel price impact on our company is 
basically doubled. We would have that opportunity to pass that 
on to our customers, but in reality they can't really pass that 
on to their customers downstream, so we have chosen not to do 
that this year. The effect on our company, the difference 
between the actual fuel price that we will pay and the budgeted 
fuel price that we went into the year at will be about $2.2 
million, or about $11,000 per employee that we have. Which is a 
pretty significant number.
    Also, I would like to point out that our ability to budget 
fuel costs is abysmal. And I think most businesses have that 
problem. So my first recommendation would be if there is 
information that can come from the Federal Government--I 
realize fuel costs are very difficult to budget, but I am sure 
the Federal Government does--it may have the ability to help 
business plan ahead. Certainly one of our biggest problems with 
fuel costs from a business standpoint is not being able to 
anticipate what may happen in the future. Now, obviously, when 
you have natural disasters, that is not a predictable event. 
But help in thinking about where fuel costs are headed would be 
helpful.
    I certainly will not read the testimony on how this affects 
our company. The summary, I think, will do. But obviously, we 
are a very fuel-dependent industry. That will affect different 
businesses differently. But it certainly has had a big impact 
on businesses and is a hardship.
    For our employees' standpoint, they are in a tough 
situation. It does hit them hard. It is not an easy industry to 
telecommute. It is not even an easy industry in order to ride 
mass transit, because the construction industry works at 
various sites. Typically, those sites are not well-served by 
mass transit. So our employees have a difficult time adapting 
when these situations arise.
    We operate out of seven locations in southern Nevada and we 
have recently provided our employees an opportunity to move, 
transfer to different locations in order to be closer to their 
home. We have also tried to encourage ride-sharing, when that 
is possible. Our original transportation commission in Clark 
County has a program that they call Club Ride, that combines 
several of these functions. And many organizations, including 
the Chamber of Commerce, are promoting and advertising and 
providing information on many of the topics that have been 
spoken about earlier here today.
    I believe most of the business community would ask that 
Congress show restraint in trying to have a direct impact on 
the cost of fuel. On the other hand, I think--and we have 
talked about alternatives here today. Making those alternatives 
available is important and people need those types of 
alternatives. We have talked about several today. I have some 
others that I would like to use the rest of my time just to 
bring onto the record.
    Rail capacity in the Southwest, and maybe across the 
country, is basically used. Our industry trucks substantial 
amounts of materials across State lines, long distances that 
are appropriate for rail use, but there is no rail capacity 
left. Anything that could be done to increase rail capacity 
would help the highway situation immensely, would really lower 
the usage of fuel.
    Alternative fuels have been mentioned. And obviously, we 
have made strides. We need to make further strides, especially 
in infrastructure.
    On the heavy equipment side of things, because the effects 
on engines are not well-known, if we use alternative fuels in 
our engines we lose the warranty on those engines. So any help 
that Congress could give in working with those heavy engine 
equipment manufacturers would certainly speed the process of 
fuel conversion in heavy equipment.
    Workforce housing is an issue in most communities. It has 
certainly been an issue in our community of Las Vegas. And it 
is exacerbated in Las Vegas because the Federal Government owns 
virtually all the land outside of our valley. Bedroom 
communities are springing up in the nearest possible locations, 
but they are 50 and 60 miles away. In fact, I saw this morning 
that PBS is running a special about one of those communities 
just this evening. That community is 60 miles north of the 
nearest job. And having communities that only provide a place 
for people to have an affordable house but don't afford the 
jobs that go along with that certainly is a problem.
    Our community has embraced mixed use and transit-oriented 
development, but the West has typically been built to the scale 
of the automobile. It is an evolutionary process. It is a 
difficult process in those types of communities, and it will be 
difficult for Las Vegas to go through that. Mixed use 
ordinances, though, Congressman Moran asked earlier if Las 
Vegas basically had a predilection for density. It has actually 
been the opposite in the West. And that is slowly shifting, but 
that shift needs to be embraced.
    Weight restrictions on vehicles may be something that could 
be looked at. Some increase in the maximum width of vehicles 
would increase productivity. The heavy equipment certainly is a 
major contributor to highway use. I don't know what the math is 
on that. But it may make sense as an alternative to allow heavy 
trucking companies to haul higher weights and pay for that. It 
provides more productivity for those organizations as well as 
better fuel utilization, and it does cut down on congestion.
    With that, I will conclude my remarks and be happy to 
answer any questions. Thank you.
    [The prepared statement of Mr. Hill follows:]
    [GRAPHIC] [TIFF OMITTED] T5706.039
    
    [GRAPHIC] [TIFF OMITTED] T5706.040
    
    [GRAPHIC] [TIFF OMITTED] T5706.041
    
    [GRAPHIC] [TIFF OMITTED] T5706.042
    
    [GRAPHIC] [TIFF OMITTED] T5706.043
    
    [GRAPHIC] [TIFF OMITTED] T5706.044
    
    Mr. Porter. Thank you, Mr. Hill. I appreciate your being 
here, coming a long way from the dry desert to the heavy rains 
we are having. You probably brought it with you, right?
    Mr. Hill. No, but it is a nice change. Thank you.
    Mr. Porter. Thank you.
    I am going to pick on you for a moment, Steve. Again, 
appreciate your being here. You are active in the community 
and, as you mentioned, from the builders organizations to the 
Chamber of Commerce. And as we look at--the Federal 
Government--impacts on the cost of fuel to the expense not only 
for the individual that is employed by the Federal Government 
but also the government as a whole, when we look at individual 
economies that are impacted, not only the Federal Government, 
economies like Nevada, are dependent upon the automobile. What 
do you see happening from our tourism base in Nevada in that 
close to half if not more travel to Nevada via automobile? Has 
there been a change in the amount of visitors? What is the 
Chamber seeing in the impact on tourism in Nevada?
    Mr. Hill. Well, there have been different projections of 
what will happen with the price of fuel going up. There was an 
article in the Las Vegas paper just yesterday--I think it was 
yesterday--talking about the reluctance of people from 
California to come to Nevada because of the cost of fuel. That 
is starting to show up. There have been some reports and 
projections that tourism from California may drop as much as, I 
believe, 45 percent, which the gaming industry disputes.
    So I am sure it will have an impact. But the cost of fuel, 
obviously, over the last 6 weeks has also gone down, and that 
will certainly help.
    Mr. Porter. Understanding that your professional background 
is in the construction industry but also as an entrepreneur, 
what would you suggest that Congress do to help additional 
encouragement for the private sector to possibly doing more 
telework? And I know not specific to your industry but to 
business as a whole. Are there some things you would suggest 
that we look at to expand this more so in the private sector?
    Mr. Hill. Well, I think that education is important to 
start with. I think there are businesses out there that really 
haven't considered the topic and how to make that work. Someone 
earlier talked about capacity in order to do that. In many 
cases, people at home didn't have the capacity to telework 
until the last 2 or 3 years. The broadband capability just 
wasn't there. We have talked about the last mile for several 
years, and until recently that last mile has not been all that 
fast. If you can work in a confined environment at home, that 
is great. But if you need the capacity to tap in to a network, 
any help along those lines, I think, would be great.
    And off the top of my head, those are the two things.
    Mr. Porter. Thank you. Thank you very much.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Gentlemen, your testimony is quite sobering. As a matter of 
fact, it is frightening to some degree. I mean, to think, Mr. 
Mularie, I mean, to think a person who actually may earn 
$65,000 a year could be paying or spending 2 months of their 
take-home pay just to get to and from work. And then I guess, 
when you add all of the taxes in that one has to pay to 
participate, you know, as a citizen, it does become 
frightening, in a sense.
    And so this business of finding a solution to the 
transportation cost, especially where it is driven by the price 
of gasoline, what do each one of you, any one of you, think 
that we really need to do? I mean, telecommuting obviously is 
one approach. I mean, that is one thing, to the extent that we 
can really get that off the ground and find the numbers of 
employees who can actually make use of it. But then, obviously, 
as in your industry, a majority of the people who work in that 
industry obviously will not be able to do it.
    So what do you suggest that we really do?
    Mr. Mularie. If I could answer first, Congressman Davis. 
You heard two of our speakers, Mr. Matthews and Mr. Hill, 
mention broadband, access to broadband. The world is not going 
to change for us in terms of our current conundrum on commuting 
until we have access to broadband ubiquitously in this country. 
That is No. 1.
    And I was sort of smiling at Congressman Wolf's answer when 
you asked the very same question in terms of some of the 
barriers. And some of the barriers are people my age, sir, in 
that I remember my father getting up at 4:30 every morning with 
a lunch pail and a coffee and going to a place was how you 
worked. And my people in the Telework Consortium have said, 
Bill, it is OK if we have this meeting when you are at the 
coffee shop and get on the WiFi and we would have our meetings. 
So there is a real change in culture in the definition of work.
    Mr. Calcagni. If I may suggest sort of the opposite side of 
the high-tech solution. There are things, very simple things, 
that we can do in this country to reduce our reliance on 
gasoline. And they are as simple as convincing people to think 
a little bit about the type of vehicle that they are buying, 
making sure that their vehicle is operating properly, because a 
properly tuned vehicle will run much, much more efficiently, 
and suggest that people give a little bit more thought to their 
actual driving behaviors, not just--you know, and I suspect we 
have all been guilty at one time or another of running to the 
store and thinking, gee, I really should have gone to the 
drugstore while I was out getting that loaf of bread and then 
we will run back out. If we think in terms of that behavior and 
also if we simply obey speed limits and we simply avoid 
jackrabbit stops and starts and those types of things, these 
very low-tech solutions can have a very, very large impact on 
the amount of gasoline we use.
    Mr. Davis of Illinois. You have hit upon a subject that I 
think needs a great deal of additional exploration. Perhaps not 
only should there be some more hearings, but maybe we are going 
to have to have some conferences and different approaches and 
different things to really help the American public understand 
how much of an issue this really is.
    So again, I thank all of our witnesses for coming, and I 
certainly want to commend and thank you for calling this 
hearing.
    Mr. Porter. Thank you, Mr. Davis. Appreciate that. And if 
there is--Mr. O'Keeffe, were you going to say something on the 
last, or Mr. Hill? Any comments?
    Thank you very much. It is frightening, and I appreciate 
your comments, Mr. Davis. I think that we have become very 
spoiled and we take a lot of things for granted. And I think 
that the recent challenges that we have had from Katrina and 
other natural disasters, the war on terrorism, the impact of 
having the bulk of our exploration--which I believe is a 
different definition than my friend and colleague is talking 
about--from oil, and being dependent upon foreign oil, all 
these things tie into an economy and a country that we have 
taken a lot of things for granted. And I speak as a Member of 
Congress from the Western United States. Mr. Hill alluded to 
it, that we certainly are spoiled in the West, because we 
actually judge distance not by miles but by time. When you can 
drive, you know, 500 miles up the State of Nevada from southern 
Nevada to northern Nevada, or from California to Las Vegas, or 
from Las Vegas to Phoenix, we like to be able to drive our 
vehicle. And we are not accustomed to even some of the 
challenges that we have here in the East as far as getting 
around and, actually, from parking. We have free parking in 
Nevada, and we pride ourselves on that. And we don't have to 
pay in advance for parking in Nevada because we encourage 
visitors.
    But it is going to take a whole mindset. We in the West 
have not embraced the degree of public transit as we do here in 
the East because we have always had lots of space, lots of 
land. So it is a cultural change.
    I look forward to additional meetings, Mr. Davis, and thank 
you for being a part of this, and the rest of the committee.
    I would like to note that Members have an additional 5 days 
to provide information without objection, to provide any 
additional questions. And you may expect to have some followup 
from other Members that aren't here today.
    Again, we thank you all for being here, and I would like to 
adjourn the meeting.
    [Whereupon, at 4:53 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T5706.045

[GRAPHIC] [TIFF OMITTED] T5706.046

[GRAPHIC] [TIFF OMITTED] T5706.047

[GRAPHIC] [TIFF OMITTED] T5706.048

                                 <all>

</pre></body></html>
